<html>
<title> - ENSURING SOCIAL SECURITY SERVES AMERICA'S VETERANS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


     HEARING ON ENSURING SOCIAL SECURITY SERVES AMERICA'S VETERANS

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON SOCIAL SECURITY

                                 OF THE

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 7, 2018

                               __________

                          Serial No. 115-SS07

                               __________

         Printed for the use of the Committee on Ways and Means
         
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                                  
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
33-795                       WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ed8a9d82ad8e989e998588819dc38e8280c3">[email&#160;protected]</a>                   
            


                       COMMITTEE ON WAYS AND MEANS

                      KEVIN BRADY, Texas, Chairman

SAM JOHNSON, Texas                   RICHARD E. NEAL, Massachusetts
DEVIN NUNES, California              SANDER M. LEVIN, Michigan
DAVID G. REICHERT, Washington        JOHN LEWIS, Georgia
PETER J. ROSKAM, Illinois            LLOYD DOGGETT, Texas
VERN BUCHANAN, Florida               MIKE THOMPSON, California
ADRIAN SMITH, Nebraska               JOHN B. LARSON, Connecticut
LYNN JENKINS, Kansas                 EARL BLUMENAUER, Oregon
ERIK PAULSEN, Minnesota              RON KIND, Wisconsin
KENNY MARCHANT, Texas                BILL PASCRELL, JR., New Jersey
DIANE BLACK, Tennessee               JOSEPH CROWLEY, New York
TOM REED, New York                   DANNY DAVIS, Illinois
MIKE KELLY, Pennsylvania             LINDA SANCHEZ, California
JIM RENACCI, Ohio                    BRIAN HIGGINS, New York
PAT MEEHAN, Pennsylvania             TERRI SEWELL, Alabama
KRISTI NOEM, South Dakota            SUZAN DELBENE, Washington
GEORGE HOLDING, North Carolina       JUDY CHU, California
JASON SMITH, Missouri
TOM RICE, South Carolina
DAVID SCHWEIKERT, Arizona
JACKIE WALORSKI, Indiana
CARLOS CURBELO, Florida
MIKE BISHOP, Michigan
DARIN LAHOOD, Illinois

                     David Stewart, Staff Director

                 Brandon Casey, Minority Chief Counsel

                                 ______

                    SUBCOMMITTEE ON SOCIAL SECURITY

                      SAM JOHNSON, Texas, Chairman

VERN BUCHANAN, Florida               JOHN B. LARSON, Connecticut
MIKE KELLY, Pennsylvania             BILL PASCRELL, Jr., New Jersey
GEORGE HOLDING, North Carolina       JOSEPH CROWLEY, New York
JASON SMITH, Missouri                LINDA SANCHEZ, California
TOM RICE, South Carolina
DAVID SCHWEIKERT, Arizona


                            C O N T E N T S

                               __________
                                                                   Page

Advisory of February 7, 2018 announcing the hearing..............     2

                               WITNESSES

Gina Clemons, Associate Commissioner, Office of Disability 
  Policy, Social Security Administration.........................     6

                        QUESTIONS FOR THE RECORD

Questions from The Honorable Sam Johnson to Gina Clemons.........    28

                   PUBLIC SUBMISSIONS FOR THE RECORD

Center for Fiscal Equity, Michael G. Bindner, statement..........    33

 
           ENSURING SOCIAL SECURITY SERVES AMERICA'S VETERANS

                              ----------                              


                      WEDNESDAY, FEBRUARY 7, 2018

             U.S. House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Social Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:01 a.m., in 
Room 2253, Rayburn House Office Building, Hon. Sam Johnson 
[chairman of the subcommittee] presiding.
    [The advisory announcing the hearing follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman JOHNSON. Well, good morning. We are going to get 
going here, if it is okay with you all. I will wait until one 
of them gets his coat off.
    Mr. PASCRELL. Thanks, Mr. Chairman.
    Chairman JOHNSON. I want to say good morning and welcome to 
today's hearing on ensuring Social Security helps America's 
veterans.
    Before turning to today's topic, I wanted to take a minute 
to say a few words about another public servant, Ed Lorenzen. 
As some of you may know, Ed's life was tragically cut short 
just a few weeks ago.
    Ed was the type of person you would want as a staffer, whip 
smart and a hard worker. And while we didn't always agree on 
how best to fix it, his passion for addressing Social Security 
and our unsustainable debt was unmatched.
    His death is a loss for the American people, and he will be 
missed. My prayers are with his children, family, and friends 
during this difficult time.
    Turning back to today's hearing, our veterans serve our 
country, and in return, the government should make it easy to 
access the services and benefits they have earned. This means 
having a simple and fast process when our veterans apply for 
Social Security disability benefits.
    This is especially true for our wounded warriors. Americans 
across the board are waiting far too long for a disability 
hearing, and Social Security must get the backlog under 
control.
    But today, we are going to hear how Social Security speeds 
up disability claims for certain veterans. We will also hear 
about how it uses electronic health records from the VA and DOD 
to speed up decisions.
    I am glad to see Social Security using technology to keep 
disability decisions moving, and that is a good thing.
    Finally, we will hear about Social Security's great job 
when it comes to hiring our veterans. During their time in 
uniform, our veterans demonstrated the highest level of duty, 
honor, and discipline, and they demonstrated tremendous 
knowledge and skill in their jobs. These are attributes every 
employer seeks in a candidate.
    Colleagues, Americans rightly expect us to do the best for 
our veterans. Social Security is no exception. While there are 
things that Social Security is getting right, there is still 
room for improvement. And as Chairman and as a 29-year veteran, 
I am committed as ever to making sure Social Security 
effectively serves our veterans.
    I thank our witness, Ms. Clemons, for being here today, and 
I look forward to hearing her testimony.
    I now recognize Mr. Larson for any opening statement he 
wishes to make.
    Mr. LARSON. Thank you, Mr. Chairman, and thank you for 
holding this hearing today. I, too, want to recognize the 
untimely, tragic passing of Ed Lorenzen and his son, Michael. 
This is a terrible loss to his surviving children and the rest 
of his family and his many friends.
    And it is also a loss to Congress and the Nation. Ed was a 
tireless advocate for fiscal responsibility and an honest 
broker who served both sides of the aisle. We will miss his 
expertise, his guidance, and his wit.
    With that, we turn to today's hearing. And, again, I 
applaud the chairman for this. Americans know that Social 
Security is first and foremost an insurance plan. It is not an 
entitlement. It is actually the insurance that they pay for. 
They have earned these benefits with every paycheck and know 
they can count on them.
    This is true for veterans as for all American workers. In 
fact, more veterans receive benefits from Social Security than 
receive veterans disability or pension benefits.
    We must fight back against calls to make cuts to Social 
Security and instead come together in a bipartisan way, as the 
President of the United States has suggested, and strengthen 
Social Security and add to Social Security. I commend the 
President for that.
    Both the chairman and I have offered comprehensive plans to 
address the long-term shortfall in Social Security so that 
Americans can continue to count on these benefits whether they 
become disabled or retired, or if they should die prematurely 
leaving young children behind.
    While differing in our approaches, I think we can safely 
say we hope we will be able to have a hearing--I keep on 
pushing for Plano, Texas, because I want to go to the 
chairman's home district and his hometown--but anywhere would 
be fine with me to get a hearing on Social Security.
    Today's hearing focuses on our veterans and how Social 
Security serves them. The Social Security Administration has 
taken many steps in recent years to ensure that our veterans 
receive the benefits they have earned. They conduct extensive 
outreach to veterans at hospitals and other facilities to 
ensure that wounded warriors know about the benefits they have 
earned from Social Security. They flag all disability 
applications from wounded servicemembers for expedited process.
    Also, the Social Security Administration has worked out 
agreements with the Defense Department and the Department of 
Veterans Affairs to receive electronic medical evidence to help 
speed up the evaluation of veteran applications.
    On average, disabled workers wait over 600 days for 
decisions. That patently has to be improved. But disabled 
veterans get a hearing decision in less than half that time, 
about 8 to 10 months, and that is still not acceptable and 
needs to be improved.
    However, veterans also are not immune from the consequences 
of continued inadequate funding provided by SSA to operate the 
Social Security system. Since 2010, the number of beneficiaries 
for Social Security has grown by 14 percent as the baby boomers 
reach retirement age. As many as 10,000 baby boomers a day now 
become eligible for Social Security.
    In that same time, Social Security's operating budget has 
fallen by 11 percent after accounting for inflation. This has 
made it difficult, even impossible, for Social Security to 
serve our constituents promptly when they need help the most.
    Veterans report difficulty reaching SSA on its 800 number 
when they have questions or problems. If they try to visit a 
field office in person, they wait for service. It can be 
several hours. And even though they are moved to the head of 
the line if they need a hearing before the administrative law 
judge, their benefits can be held up waiting for a decision to 
be written or receive their checks.
    We need to do better by our veterans and by all Americans 
so that they can receive the benefits they deserve and what 
they have earned.
    Mr. Chairman, I want to thank you again for holding this 
hearing and, as a veteran yourself, understanding that with 
less than 1 percent of the entire Nation who serves in our 
military and, in fact, our Peace Corps, our AmeriCorps Vista, 
Teach America, et al., it is long overdue, especially for those 
Americans who put their lives on the line every day, that we 
provide them with the kind of services that they do for us on a 
daily basis. And I commend you for holding this hearing, and 
yield back.
    Chairman JOHNSON. Thank you. I appreciate your comments.
    And as is customary, any member is welcome to submit a 
statement for the record.
    Before we move on to our testimony today, I want to remind 
our witness to please limit your oral statement to 5 minutes, 
if you can. However, without objection, all of the written 
testimony will be made a part of the hearing record.
    We have one witness today. Seated at the table is Gina 
Clemons, Associate Commissioner, Office of Disability Policy, 
with the Social Security Administration.
    Ms. Clemons, welcome, and thanks for being here today. We 
appreciate you. Please proceed.

 STATEMENT OF GINA CLEMONS, ASSOCIATE COMMISSIONER, OFFICE OF 
       DISABILITY POLICY, SOCIAL SECURITY ADMINISTRATION

    Ms. CLEMONS. Thank you, Chairman Johnson.
    Chairman Johnson, Ranking Member Larson, and members of the 
subcommittee, thank you for inviting me to speak about our 
efforts to support our Nation's servicemembers and veterans. I 
am Gina Clemons, Associate Commissioner in the Office of 
Disability Policy at the Social Security Administration.
    I start by thanking you, Chairman Johnson, for your 29 
years of dedicated service to the United States Air Force. I 
also thank all of the members of this Subcommittee for your 
service to our Nation and for your ongoing support of our 
servicemembers and veterans.
    Social Security protects all Americans and we are proud of 
the help we provide to men and woman who serve and are serving 
our country. As an Army veteran myself, I appreciate the 
opportunity to highlight our targeted outreach initiatives, 
expedited processes, recruitment efforts, and collaborations 
with the Department of Veterans Affairs and the Department of 
Defense.
    To reach veterans, we employ a variety of outreach measures 
through our over 1,200 field offices. In this effort, our 
frontline employees are assisted by our regional public affairs 
specialists. In fiscal year 2017 alone, our public affairs 
specialists participated in more than 260 targeted outreach 
events with a total estimated audience of 70,000 people.
    As an example of the success of these relationships, 
military transition programs include information on our 
programs and SSA assists servicemembers in completing 
disability applications at military hospitals.
    Going through the Walter Reed Medical Center for my own 
military discharge, I know how daunting the process is. Having 
also had the privilege to see it from the other side, where I 
was able to take disability applications, I still recall the 
visible relief of servicemembers and family members, many 
embracing you because it was just one less thing they had to 
think about.
    In addition to outreach, we have a targeted website at 
SSA.gov where servicemembers, veterans, and their families can 
find information about our program, application process, and 
answers to common questions.
    Providing quality and timely services is at the core of 
what we do for our servicemembers and veterans. At SSA, we 
provide disability benefits to people who cannot work because 
of their medical condition.
    VA considers a veteran's ability to work only in limited 
circumstances. VA primarily bases disability compensation on 
the severity of the veteran's impairments, from injuries or 
diseases incurred or made worse while on active duty. Different 
definitions require separate decisions, but we work together to 
strengthen both programs.
    For example, through collaboration, we expedite our 
decisions at all levels of review for wounded warriors and 
veterans who have 100 Percent Permanent and Total VA rating. 
Since partnering with DOD in 2005 and VA in 2014, we have 
expedited over 200,000 claims for these wounded warriors and 
veterans.
    In response to interest from this Committee and the Armed 
Services Committee, we collaborated with DOD and VA to 
electronically exchange thousands of medical records. Through 
this process we have reduced the time it takes to receive 
medical records and improve the quality of our medical record 
extract.
    In addition to our services, we are proud of the success in 
recruiting and supporting veterans. We know military service 
helps to develop strong character and results-driven attitude. 
These attributes make veterans a perfect fit for our agency. 
Quite simply, hiring veterans is smart practice, and that is 
what we do.
    Last fiscal year, we participated in over 200 recruitment 
fairs, 100 of which were at military bases or sponsored 
veterans organizations. At these fairs, we assembled a database 
of highly skilled veterans' resumes, helping us to hire 769 
veterans, including 469 new colleagues with a disability like 
myself.
    But it is not just about hiring veterans, it is also about 
supporting them. For example, we created training material for 
our managers on military culture. We collaborated with our 
Veterans and Military Affairs Advisory Council to refresh our 
veterans employee website, which includes information on agency 
policies, programs, and career resources.
    In short, we are committed to providing high quality 
service in all aspects of our program administration and to 
supporting our veteran employees and their families.
    Chairman Johnson, Ranking Member Larson, and members of the 
Subcommittee, thank you for the opportunity to describe the 
ways we support the men and women who have put on a uniform to 
serve our Nation with distinction. I extend a heartfelt thank 
you to all the servicemembers and veterans in attendance today.
    I am happy to answer any questions.
    [The prepared statement of Ms. Clemons follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman JOHNSON. Thank you for your testimony.
    We will turn to questions. As is customary, for each round 
of questions I will limit my time to 5 minutes and will ask my 
colleagues to also limit their questioning time to 5 minutes as 
well.
    Ms. Clemons, as a 29-year veteran, I have long been 
committed to ensuring that our country does right by our 
veterans. And when it comes to our disabled veterans, it is my 
understanding that Social Security is processing initial claims 
for disabled veterans 5 to 7 days faster than for the general 
public. While the Social Security Administration says it is 
expediting these cases, that doesn't seem like it is really 
that much faster.
    Can you tell us more about how you are trying to expedite 
claims?
    Ms. CLEMONS. Chairman Johnson, thank you for the 
opportunity to describe our process.
    Veterans' and servicemembers' claims are often quite 
complex, with multiple chronic conditions at times and 
extensive medical records. It is not surprising that we see a 
veteran's claim with over 1,000 pieces of records in it. 
Despite this, we are able to expedite their claims by putting 
in a process at all levels of review and in each step in our 
program.
    For example, when a veteran calls, rather than waiting the 
standard goal of 28 days to set an appointment, as noted, we 
set an appointment in 3 days. When the field office transfers 
that claim to the Disability Determination Services, they 
immediately start working the claim rather than putting it in a 
queue for assignment that could take a week.
    Similar events happen when we have the medical consultants 
and the psychological consultants review the case. Rather than 
waiting in a queue, as soon as they are ready for review, they 
get reviewed.
    So at each step, we are looking for ways to improve the 
process, and this happens at all of our levels of the program, 
including at the appeals level where we are able to cut the 
processing time in half because there are more pending claims 
at that level.
    Chairman JOHNSON. You know, one thing that seems to really 
to make a difference is electronic health records, which can 
cut processing time nearly in half. And I know you work with 
the VA and DOD on this already. Are there any other ways to get 
more electronic health records for veterans?
    Ms. CLEMONS. Chairman Johnson, thank you for your support 
of our health IT activities.
    As more veterans are receiving care outside of the VA 
facility, we also need to ensure that we are getting those 
records as expeditiously as possible.
    Under our IT modernization efforts, part of that strategy 
includes acquiring electronic evidence from all records in an 
electronic format. So the more electronic records that we 
receive from all facilities, it will help the veterans as well 
as all the individuals we serve.
    Chairman JOHNSON. Okay. One thing I hear a lot from our 
wounded warriors is that they want to work, yet in reality, 
some of the policies that are supposed to help actually make 
things harder. You know, the Ticket to Work and Work Incentive 
Improvements Act of 1999 tried to help individuals with 
disabilities who return to work by extending their Medicare 
eligibility for several years.
    Can you tell us what typically happens to a person 
returning to work who has other insurance available to them, 
such as through their employer, and as a result no longer want 
to be on Medicare? And do they have to stay on Medicare or do 
they have a choice? And how is this different for our wounded 
warriors?
    Ms. CLEMONS. Chairman Johnson, somebody who has other 
insurance through their employer often has the option to be on 
Medicare or not. This is different for our veterans, our former 
military servicemembers, as they are required, if they are 
eligible for Medicare Part B, they are required to enroll in 
Medicare Part B to be able to get and receive TRICARE.
    Chairman JOHNSON. And you all follow them, I presume?
    Ms. CLEMONS. We do, yes. We absolutely do.
    Chairman JOHNSON. Thank you for that, Ms. Clemons.
    And, colleagues, as you have heard there is a quirk in the 
law that means these veterans aren't treated the same as 
everyone else. Some of these veterans may want to keep their 
Medicare Part B and some may not.
    But here is the problem. These veterans who want to keep 
access to TRICARE For Life have no choice but to stay on 
Medicare, which is more expensive than TRICARE, and I am not 
sure that is right.
    In other words, the interaction between Social Security's 
disability program and TRICARE program inadvertently penalizes 
those wounded warriors who return to work after recovering from 
their injuries.
    That is why I have introduced bipartisan legislation, H.R. 
2243, the HEARTS Act, the Health Equity and Access for 
Returning Troops and Servicemembers Act. This bill would repeal 
the requirement that wounded warriors maintain and pay for 
Medicare coverage upon returning to work in order to keep 
access to TRICARE. It is the right thing to do.
    I will now recognize my colleague, Mr. Larson, for any 
questions you might have.
    Mr. LARSON. Well, thank you, Mr. Chairman.
    And thank you, Ms. Clemons, for your testimony. I have a 
couple of rudimentary questions.
    Number one, how many veterans currently receive Social 
Security benefits?
    Ms. CLEMONS. Our last estimate is 1 million veterans. And 
we can confirm for the record that that is the current number, 
but 1 million.
    Mr. LARSON. And what type of Social Security benefits is it 
that veterans and their families depend on?
    Ms. CLEMONS. Veterans can receive all of the benefits of 
our program, whether it is for themselves or----
    Mr. LARSON. Do veterans pay into the Social Security system 
through their military service?
    Ms. CLEMONS. They do indeed.
    Mr. LARSON. How do Social Security disability benefits 
differ from VA disability compensation?
    Ms. CLEMONS. Social Security benefits are, in part, an 
income replacement for your inability to work. Veterans 
benefits are a compensation for a loss incurred or made worse 
in the service. So that plays out because there are different 
definitions in a couple of ways.
    For example, we only pay full benefits, total benefits 
where VA can pay compensation for a number of impairments. They 
can add up to reach 100 percent, but they are partial 
disability based on the severity of the condition.
    And we look at work. We are looking at all jobs on the 
national economy to see if a person can do that. In the limited 
circumstances--and it is limited--that VA looks at work, they 
are really looking at can the person do their prior work in 
their community. So big distinctions on that.
    And VA is also looking at how the person presents. For 
example, if somebody has high blood pressure and depression but 
they are service-connected, they will get compensation for 
that, regardless of if they get treatment or not.
    In our program, we would look at those impairments, but if 
they are treated and controlled, then they wouldn't necessarily 
hinder their ability to work.
    Mr. LARSON. But a veteran can receive both Social Security 
and veterans benefits as well.
    Ms. CLEMONS. Absolutely can, and many do.
    Mr. LARSON. I think it was Ronald Reagan that said facts 
don't lie and they are a difficult thing. But with 10,000 baby 
boomers a day becoming eligible for Social Security, and with 
the number of beneficiaries having grown by 14 percent as the 
baby boomers come through retirement, Social Security's budget 
has fallen during the same time by 11 percent.
    Do you think you could be providing better service? I think 
Mr. Johnson rightly points out some of the inadequacies that 
exist. And one would think, based on the numbers coming through 
the system and the cuts in the budget and with use of modern 
technology, that we ought to be able to do a better job.
    Ms. CLEMONS. So, Ranking Member Larson, with the 
President's budget, we will continue to hold fast in our 
commitment to veterans and military servicemembers.
    Mr. LARSON. Yeah, but that doesn't answer my question.
    Ms. CLEMONS. We will also be able to work our priority 
workloads, such as implementing our CARES plan, to bring down 
the pending backlog.
    Mr. LARSON. So basically you are saying, this is fine, you 
can do without any increase, and this 10,000 baby boomers a day 
has no impact on Social Security, you are going to continue to 
operate as efficiently as possible.
    Ms. CLEMONS. We are going to continue to look for 
efficiencies in our program and become more efficient where we 
can through our IT modernization----
    Mr. LARSON. So you need no more increase, you are fine with 
the budget as it is?
    Ms. CLEMONS. With the President's budget we can address our 
priority workloads, pending bringing down the----
    Mr. LARSON. So we just went through this whole thing where 
we are talking about people who aren't in the military and the 
exhaustive time that they have to wait to get a disability 
claim, and you are fine with that?
    Ms. CLEMONS. Ranking Member Larson, with the President's 
budget, we will be able to address our workloads.
    Mr. LARSON. So that is a nonanswer answer. But, frankly, it 
is very disturbing when you see the premier government agency 
that has responsibility to deal with its American citizens and 
say that with respect to waiting for disability claims, both 
veterans and nonveterans, that that is an absurd amount of time 
given the technology that we have. And you insist that, well, 
we can do just fine with what we have. Is that right?
    Ms. CLEMONS. Well, with $100 million extra, for every $100 
million extra that we receive we can work an additional 106,000 
disability claims and 51,000 hearings.
    Mr. LARSON. So will you be able to come back to this 
committee next year and say, ``Given the cuts that we received 
in the budget and given our ability to deal with this, that we 
will see drastic improvement, both for our veterans and for our 
citizens who deserve disability and service and efficiency out 
of their government''?
    Ms. CLEMONS. I will tell you that we will continue to 
operate----
    Mr. LARSON. That is a nonanswer. Will you commit to that? 
Because we would like to have things measured by standards. I 
think everybody on this committee especially wants to see that. 
We have got a large population out there that we have to serve. 
We have enormous stress on that system with 10,000 baby boomers 
coming in there a day. And so it is helpful to people who are 
legislators to know whether or not you are adequately funded.
    You are saying you are and you can deal with all of these. 
So I am saying, good, we will expect a report from you next 
year showing how you decreased that time in which people get 
their disability payments in both the military side as well as 
your average citizen.
    Ms. CLEMONS. Ranking Member Larson, I can tell you that as 
an agency we will continue to use our resources as efficiently 
and as effectively as we can. We will concentrate on our----
    Mr. LARSON. Will that translate into getting these benefits 
out to people in a more timely basis?
    Ms. CLEMONS. We will continue to advance IT modernization, 
which will allow us to acquire electronic evidence that will 
bring down the timeline for benefits.
    Mr. LARSON. All right. So we are not going to get any 
answers here, so that is unfortunate given the position that 
you hold and given that every American relies on Social 
Security.
    Very disturbing, Mr. Chairman. I yield back.
    Chairman JOHNSON. Thank you for your questions.
    You need to give us direct answers, if you can, please. Mr. 
Rice, you are recognized.
    Mr. RICE. Thank you, Mr. Chairman.
    Thank you, Ms. Clemons, for being here today.
    I see a couple of things here that are just curious to me. 
One is that your disability applications have decreased by 
almost 500,000 per year from 2012 to 2016. What is your current 
level of disability applications per year?
    Ms. CLEMONS. The number of disability applications is about 
2.7 million per year.
    Mr. RICE. So it was, then, 3.2 in 2012?
    Ms. CLEMONS. It may have been at that time. I can confirm 
for the record.
    Mr. RICE. Two-point-seven million applications per year.
    And also that your number of days to review has increased 
since 2012 significantly.
    Why is that? Has the number of judges gone down? Or what is 
causing the increase in the backlog.
    Ms. CLEMONS. Well, there are a number of considerations, as 
noted. We have a greater number of people coming through our 
process than we had before.
    Mr. RICE. But what I am confused about--I don't mean to 
badger you, I am sorry, but I just want to understand. This 
says you have 500,000 less claims per year now than you did in 
2012, but the number of days it takes to get a hearing has 
doubled in that same time period.
    What causes that? I mean, if the number of claims has gone 
down by 20 percent, it seems like the number of days, unless 
you had a huge backlog to begin with. Are you losing judges? 
Are you losing experienced people? What is causing the problem?
    Ms. CLEMONS. Well, Congressman Rice, what I can tell you is 
that it takes us some time to work through the cases that we 
had. So to the 2012 cases, we have to continue to work our 
cases. There are a number of other variables. Since that is not 
my area specifically, I can submit those areas for the record 
on what other additive factors address that.
    Mr. RICE. Okay. I know that--and correct me if I am wrong--
but the primary objective, the basic function of this process 
is you want people to get disability that they are entitled to, 
but you have to make sure they are entitled to it, right? So 
you have to go back and review their medical records and make 
sure that they are, in fact, disabled and that, in fact, keeps 
them from working, correct? Isn't that the primary function of 
what you are doing here?
    Ms. CLEMONS. It is, indeed.
    Mr. RICE. Yeah. And so, I know I used to actually rent, I 
had commercial real estate, I used to rent an office to you 
guys, and I saw technology improving through that time. They 
used to have a number of judges come through this office and 
have hearings, and they switched to tele-hearings where the 
judges never came. They were just on a TV screen in the office 
and allowed judges to have more hearings.
    What other types of technological advances have you had to 
increase your efficiency and decrease these waiting times?
    Ms. CLEMONS. Congressman Rice, thank you for acknowledging 
the improvements we have made in our videos to work on our 
pending claims.
    Other areas where we are working, we have spoken about 
health IT. We continue to increase the amount of information we 
get through the electronic record.
    But in addition to speeding the amount of time, we are 
actually building in decision support in those capabilities. So 
when we receive the record, it is just not a record. It has 
enhancements to it, where it will actually flag for our 
adjudicators that it may meet one of our medical listings.
    We are continuing to build out that functionality using the 
machine learning, natural-language processing, optical 
character recognition to ensure that it is accurate decisions 
that we are making, expeditiously and efficiently using 
technology.
    Mr. RICE. Do you have like a triage function, where when 
somebody comes in and they are very obviously totally disabled 
that you can just pick them out immediately and not put them 
through this 2 years of waiting for disability?
    Ms. CLEMONS. Absolutely. Our sequential evaluation, the 
fundamental process that we use to evaluate claims, looks at 
medical first. If you can meet the criteria on medical there is 
no other longer assessment needed. That is our medical listings 
of an impairment. Most of the--like a larger percent of the 
people that meet those medical listings are held at the initial 
level. They never get to an appeal because it is a clear 
decision.
    We also have expedited processes for people that are TERI, 
where a terminal illness, or compassionate allowances for 
individuals that do meet those significant--of our severest, so 
we can work them through the process.
    Mr. RICE. Okay. So I am just going to leave with this one 
question for you to follow up.
    If what this memo says for this hearing is true, that the 
number of claims has dropped from 3.2 million in 2012 to 2.7 
million in 2016, which is like a 20 percent drop, or maybe a 
little less, 15 percent drop, why has the number of days to get 
to a hearing gone from 300 days to 600 days, unless you have 
got 20 percent less judges?
    Do you have 20 percent less judges?
    Ms. CLEMONS. I do not know the number--the percentage of 
judges. It is not my area.
    Mr. RICE. I am curious about what the fundamental 
underlying problem is.
    Thank you, ma'am.
    Ms. CLEMONS. I will get it to the record.
    Chairman JOHNSON. Thank you.
    Mr. Pascrell, you are recognized.
    Mr. PASCRELL. Thank you, Mr. Chairman. Thanks for holding 
this hearing.
    Dr. Clemons, you come to this position very qualified, you 
are experienced. Your first responsibility and my first 
responsibility is to the country, not to any political party, 
not to any President.
    Ensuring that our veterans receive disability and 
retirement benefits and that their families receive survivor 
benefits in a timely fashion is critical for the 20,000 
veterans who receive Social Security Administration benefits in 
my district.
    As you testified, the Social Security Administration has 
successfully expedited disability claims with wounded warriors 
who have a benefit rating of 100 percent permanent and total.
    Now, we could do more, of course. More can be done to 
reduce claims processing time, you have heard, and ensure our 
veterans receive accurate decisions on their claims.
    And I am looking at two charts. One chart is the cuts to 
Social Security funding and when they really began. And the 
other chart is the waiting times for disability benefit 
appeals. They coincide. In other words, when the cuts came, the 
time expanded.
    As more servicemen and -women return home from the 
battlefield, I do not understand why this administration 
proposed eliminating the Individual Unemployability benefits 
program in its budget last year. AMVETS estimated this proposal 
would hurt 225,000 military veterans. It would decrease the 
disability benefit paid to an unmarried veteran with a 90 
percent disabled rating by a full $1,200 a month. A veteran 
with a 60 percent disability rating who lives alone was 
estimated to see a cut of $1,890.34 cents, which is 63.6 
percent.
    This is outrageous, this is unacceptable, especially since 
candidate Trump promised to improve the treatment of veterans 
and promised not to cut Social Security.
    The Social Security Administration budget has declined 11 
percent since 2010. There are unprecedented delays in appeals 
hearings despite wait times being lower for veterans and 
callers are hung up on or getting busy signals before 
connecting with an operator.
    There has been a closure of 64 field offices throughout the 
Nation and a disability hearings backlog with an average, as 
you have heard from several of us, 605 days waiting period.
    So everything is not hunky-dory, is it, Dr. Clemons?
    Ms. CLEMONS. We are running efficiently under our budget.
    Mr. PASCRELL. Yeah, I have heard you say that word--excuse 
me, Chairman--I have heard that word 4 times, 5 times, 50 times 
from you. The numbers are the numbers. And you have got to deal 
with those numbers. I have to deal with those numbers.
    It is not acceptable to me. So it apparently is acceptable 
to you because you are running at the most efficient rate you 
possibly can.
    Dr. Clemons, can you guarantee there will be no cuts to 
Social Security benefits in the next budget, administration's 
budget? Could you guarantee that?
    Ms. CLEMONS. Congressman, I cannot make guarantees.
    Mr. PASCRELL. Dr. Clemons, would the Social Security agency 
be able to reduce processing times for veterans if the agency 
had additional resources? Dr. Clemons?
    Ms. CLEMONS. If we had $100 million in additional 
resources, we would be able to process 106,000 additional 
claims. With our budget, the President's budget, we are 
concentrating our priorities on efficiencies. We are looking at 
using our technology for IT modernization. So we are on a path 
to implement----
    Mr. PASCRELL. Would the Social Security agency be able to 
reduce processing times for veterans if the agency had 
additional staff?
    Ms. CLEMONS. As noted, if we had additional funding, $100 
million, we would be able to process additional claims. That 
would include additional staff in that estimate.
    Mr. PASCRELL. So if additional funding, and you pointed to 
a particular figure, helps you get more folks, you think you 
will increase. So it strikes me as, if we support that budget, 
increase it more, we get more responses and shorten the time 
even further. Am I using proper or improper logic?
    Ms. CLEMONS. Congressman, we will operate within the budget 
we are given. If we are given additional funds, we would be 
able to fund 106,000 additional----
    Mr. PASCRELL. And I am sure if you were given nothing, you 
would operate within that, too.
    Dr. Clemons, I have one final question. Thank you for your 
courtesies, Mr. Chairman. Would removing the Federal hiring 
freeze----
    Chairman JOHNSON. Your time is up, you know.
    Mr. PASCRELL. Yeah, I know. All right, go ahead, Mr. 
Chairman. I was just going to ask one more question.
    Chairman JOHNSON. Well, go ahead and ask it.
    Mr. PASCRELL. Thank you, sir.
    Would removing the Federal hiring freeze for the Social 
Security Administration improve service to veterans and those 
receiving Social Security benefits?
    Ms. CLEMONS. With the hiring freeze we--you know, we are 
continuing to serve our veterans now. They are getting 
expedited claims and expedited process. We are putting them at 
the forefront. And our service would remain strong for veterans 
regardless of our funding.
    Mr. PASCRELL. Regardless of the funding.
    Thank you, Mr. Chairman.
    Chairman JOHNSON. Yes.
    Mr. Schweikert, you are recognized for 10 minutes.
    Mr. SCHWEIKERT. Oh, we are all in trouble now. Thank you, 
Mr. Chairman.
    Look, actually, this is one of those, maybe there is going 
to be a tonal quality, but I think there is a commonality of 
all the members on the panel, just wanting to know we are doing 
the right thing.
    So let me start with a couple things that we are seeing in 
your written testimony, actually talking about electronic 
records and the fact that veterans that are applying for 
disability come to you with actually an electronic record and 
the fact that they move through the system somewhat more 
efficiently because of that.
    First, could you help me understand that efficiency of 
those electronic records and what that means to the population 
you are helping?
    Ms. CLEMONS. Yes, Congressman, thank you for the question.
    With the electronic records, that is actually a data 
exchange, it is an agreement that we have using the health 
information technology directly with the VA and DOD. So a 
veteran is not involved. They give us their permission. And 
we----
    Mr. SCHWEIKERT. And I am going to jump on you just 
because--and it is not only data sharing with VA, DOD, but even 
some private sources?
    Ms. CLEMONS. Yes, indeed.
    Mr. SCHWEIKERT. Okay.
    Ms. CLEMONS. So we are trying to optimize the use of health 
information technology in general for all individuals, 
including veterans.
    So when we receive that information, quite simply what 
happens is right now we have a process that relies on scanning, 
faxing, a number of ways to get the information. Using health 
IT, within seconds we are able to ping out to the other 
component, the VA, DOD, to see if they have information.
    If they do, we get the notice. We then send back our 
permission to receive the information. They send back that 
information to us. And it comes in a standard format with 
information that helps us, the adjudicators, to make a 
decision. For example, it will flag us earlier about conditions 
that might be our most severe conditions.
    Mr. SCHWEIKERT. I will recap with you in just a second. So 
in the sort of data-sharing agreements you have, it is coming 
to you in a standard. So is it auto-filling your forms because 
you have data field conformity?
    Ms. CLEMONS. Yes. I am probably past the technology, but, 
yes, it comes in. I can tell you we have created one standard 
form, the information comes in that format with a summary 
upfront of what the record contains, which is very helpful for 
veterans' claims, particularly, which could be quite extensive.
    Mr. SCHWEIKERT. Because I was seeing something in here, and 
correct me if I have my math or what I am reading wrong, it 
becomes the difference of when you are working with a veteran 
and they have the electronic records, they will get processed 
in, like, 47 days compared to 89 days. Help me understand what 
that meant.
    Ms. CLEMONS. So I think you are speaking to the fact that 
if we can make a decision on the veteran's claim with just the 
health information that we would get through health IT--so, for 
example, they have a severe condition, we get all of their 
medical evidence, it shows that they have a medical condition--
we can make that decision 45 percent faster.
    Now, it is a lesser amount if we have to get supplemental 
information; however, it still expedites the process through 
health IT.
    Mr. SCHWEIKERT. And you have had these data-sharing 
agreements since 2016 when it was up and running?
    Ms. CLEMONS. So with the VA, we started our agreement in 
2016, and November of 2015 with DOD.
    Mr. SCHWEIKERT. Okay. So that is actually one of your areas 
that you would say has been successful?
    Ms. CLEMONS. Absolutely, I would say, efficiency is 
electronic records.
    Mr. SCHWEIKERT. So in our minute and a half left, tell me, 
let's do a speed run, what do you see working and where do you 
see frustrations? Let's start with the good stuff. What is 
working?
    Ms. CLEMONS. We have updated our disability policies, 
bringing our medical listings 93 percent up-to-date. We are 
working on our vocational policies. We have also implemented 
process policy to make sure that we are making timely, accurate 
decisions, advancing our IT modernization, not just through 
health information exchange but across the board to consolidate 
systems. We are building case processing systems.
    Mr. SCHWEIKERT. Okay. On the things that are frustrating 
you.
    Ms. CLEMONS. We operate in a dynamic environment and we 
have to continue to keep pace through our policies and change 
to do that, and that takes time. So it is being nimble to make 
sure that we are making those changes.
    Mr. SCHWEIKERT. And I always wish we had more time, but now 
that I have 10 minutes, I was hoping somewhere here, or some 
member will ask, because there were some interesting numbers on 
applicants, veterans that were actually also getting vocational 
opportunities, were actually still finding some employment 
opportunities even with their personal impairments. And I was 
just curious what enlightenment you can give us on that. So 
somewhere here, if you ever get a chance to throw that in.
    So with that, Mr. Chairman, I yield back.
    Chairman JOHNSON. Thank you.
    Ms. Sanchez, you are recognized.
    Ms. SANCHEZ. Thank you, Mr. Chairman.
    I think all of us here today can agree on one thing, and 
that is we must do more to ensure that our veterans are able to 
retire from their service with some degree of dignity and 
security for their future.
    Social Security is the bedrock of the American retirement 
system, and the promise that Social Security has made is that 
after a lifetime of hard work, if people contribute, that 
seniors can retire with dignity and security.
    Like the general population, Social Security is there for 
veterans when they retire or when they experience a 
debilitating injury or illness that prevents them from working. 
And I was surprised to find that nearly 20 percent of adult 
Social Security beneficiaries are, in fact, veterans.
    And I know that the Social Security Administration has 
taken important steps to better serve veterans, to try to 
expedite the processing of their claim. For example, disabled 
veterans' claims are moved to the front of the line, and Social 
Security, I know, works with the VA and DOD to further expedite 
claims.
    And it is laudable that they have taken those necessary 
steps to try to improve expediency in processing veterans' 
claim, but I can't help but feel that Social Security's 
dwindling operation budget makes it harder and harder to 
provide excellent service to all beneficiary.
    Budget cuts have weakened Social Security's ability to 
fully serve veterans and other recipients as well. And despite 
the growing number of beneficiaries, Social Security's 
operating budget has actually declined by about 11 percent 
since 2010.
    And when you have that kind of decline, service is 
naturally going to suffer. Call centers, we get reports call 
centers can't keep up with the incoming calls. Half of callers 
hang up before they even speak with a service representative. 
Some experience delays in their benefits or overpayments.
    So without properly funding Social Security, they can't 
provide the quality and timely service that they should be. And 
when we don't do that, we are, in fact, not serving all of our 
beneficiaries.
    Ms. Clemons, I thank you for coming today to testify. I see 
that you are a veteran and that you have worked in various 
Federal agencies over the years. So I, first of all, would like 
to commend you and thank you for your service to our country.
    And my first question is about the accuracy of claims, 
because it is not just about getting claims processed quickly, 
it is also about getting them processed accurately.
    Can you tell me how frequently does SSA update the listing 
of impairments and training materials for assessing impairments 
that are unique to veterans?
    Ms. CLEMONS. Congresswoman Sanchez, thank you.
    We agree that accuracy needs to stay forefront and that we 
need to concentrate on quality, and that means staying current. 
So we have had a focused area on updating our medical listings 
of impairment. We are now 93 percent complete with our 
comprehensive updates.
    The last one that is remaining is impairments, 
musculoskeletal impairments. That is now out for interagency 
review, and we are looking forward to public comments on that 
shortly.
    Once we update that, we will be 100 percent up-to-date on 
our listings. And we are working on listings for other 
impairments that are targeted. Once we get those three listings 
targeted done, we will be on a 3- to 5-year update cycle for 
our listings.
    Of particular interest is just 2 years ago we updated 
neurological listings, and that covers TBI. We have always 
evaluated individuals with all impairments, TBI, PTSD. But we 
made it clear in the neurological listing what TBI was and how 
to evaluate it, giving the benefits to the veteran.
    We also last year updated our mental listings, and in it 
specifically named PTSD, post-traumatic stress disorder, gave 
guidance to our adjudicators outside the listings. We are 
providing training and updates.
    Ms. SANCHEZ. But how often is that typically done? Or what 
is the recommendation in terms of how often that should be 
done?
    Ms. CLEMONS. So our goal is to keep our listings on a 3- to 
5-year update cycle, where we will go in as medical changes and 
do targeted revisions. However, if something changes, and we 
are constantly meeting with medical experts, Federal partners 
to get medical information as medical advances, we can always 
go in and do a targeted revision.
    It is not just in the listings. For example, we are doing 
continuing medical education on TBI right now because of new 
information, and we are providing that to our medical 
consultants so they are aware of the advancement.
    Ms. SANCHEZ. Very quickly. The improved information sharing 
seems to be achieving the goal of making determinations 
quicker. Are there any areas in which that process can be 
improved?
    Ms. CLEMONS. For information sharing and data exchanges and 
things like that, well, what we are doing for information 
exchanging is we work with our Federal partners. We have a 
community of practice where we host with other Federal 
partners, talk about best practices, see if there are areas for 
learning from each other.
    We have a quarterly meeting with the VA. For example, 
during that quarterly meeting on data and policy we identified 
opportunities to provide the VA with additional information on 
date of death and changed our process. So we are constantly 
looking for opportunities to increase those data sharings and 
have the relationships in place to do that.
    Ms. SANCHEZ. Thank you. I yield back.
    Chairman JOHNSON. Thank you.
    Mr. Smith, you are recognized.
    Mr. SMITH. Thank you, Mr. Chairman.
    Thank you, Ms. Clemons, for being here. I appreciate your 
time before our committee.
    I also appreciate hearing the work that you all are doing 
in prioritizing veterans. They have served for our country, and 
if their Federal Government can make their process of 
navigating through the Federal Government easier and swifter, I 
applaud you for that. And I think that your numbers are proven 
to that.
    Also, I do want to point out, my colleague was asking you 
all kinds of budget questions earlier. I think that Members of 
Congress need to remember that the President doesn't pass a 
budget. Congress passes the budget.
    In my five years here, I have not seen Congress ever accept 
a President's budget, whether they are Republican or Democrat, 
straight on. So you being forced to defend or ask on a budget, 
I find to be unacceptable. And I think you handled yourself 
very well, and I appreciate you being here.
    But we need to remember that just voting no every time a 
budget is on the floor doesn't give you more money to serve the 
people that we complain about. Actually voting yes on a budget 
and appropriating money gives more resources instead of just 
creating Trump tantrums in committee.
    So I apologize for that. But I want to thank you for 
handling that quite well.
    In the Missouri Eighth Congressional District we have 
roughly 186,000 individuals on Social Security, and 40,000 of 
those beneficiaries are disabled workers. We don't have the 
numbers that I could find that would show how many of those 
were veterans. I think that would be very helpful, if somehow 
the Social Security Administration could help different Members 
to see how many veterans are within their different 
congressional districts. That would be helpful.
    The wait times, though, in Missouri, I have to bring up. I 
still feel like they are a significant issue for all people in 
general. If you look at the St. Louis Social Security office, 
the wait time is 672 days, and that is 73 days worse than the 
national average. So the folks in Missouri are not being served 
as well as what they could be.
    And I would recommend, if we do have more discretionary 
spending, that maybe more investment in the Midwest and 
Missouri to help bring that down with employees would be great. 
It is definitely a cheaper cost of living than on the East and 
West Coast if we actually had more of these processing 
facilities in the Midwest.
    I do want to point out that I want to applaud you again 
with your numbers from 2017 in hiring veterans. That is 
phenomenal. I think almost a third of your employees that you 
hired are veterans.
    So your agency puts your boots to the pavement, and you 
follow through on securing and making sure that veterans are 
taken care of through the process and also in employees.
    So I want to thank you for being here. I want to thank you 
for dealing with Members of Congress.
    And thank you, Mr. Chairman.
    Chairman JOHNSON. Thank you.
    You know, our veterans deserve the best service from our 
government, including Social Security. And as we have heard 
today, Social Security has several ways to speed up disability 
decisions for our veterans, from electronic health records to 
ensuring Social Security processes veterans' claims quickly.
    Social Security is helping veterans. Social Security is 
doing a great job hiring our veterans. But there is always more 
that can be done. And I encourage Social Security to continue 
to find ways to help our veterans, and I hope that you will do 
that.
    And I want to thank our witness for your testimony. And 
thank you also to our members for being here. With that, the 
committee----
    Mr. LARSON. Mr. Chairman?
    Chairman JOHNSON. Just a moment. Do you care to make a 
comment?
    Mr. LARSON. Yes, I do.
    Chairman JOHNSON. You are recognized.
    Mr. LARSON. Thank you, Mr. Chairman. Thank you for holding 
this hearing.
    And I want to thank our witness, Ms. Clemons, for coming as 
well.
    And I would only add that I hope that we are able to have 
another hearing on this and where are able get to some of the 
questions, I think very straightforward questions, that Mr. 
Schweikert, Mr. Rice, and Mr. Pascrell, yourself, Mr. Chairman, 
answered.
    I do, understand, Ms. Clemons, that you are soldiering very 
well on behalf of the administrative responsibility.
    I would also add that I think that Mr. Trump, especially 
someone who stood alone on a stage and indicated under the most 
severe kind of pressure that Social Security needed to be 
preserved and expanded, would be deeply concerned about the lag 
in time, the inefficiencies in the system.
    And hopefully, if we can hear from other advocates about 
how we can fix those, how we can speed those up, how this 
process can be better. Unfortunately, we didn't hear that 
today. And I thank you, Mr. Chairman.
    Chairman JOHNSON. Thank you.
    And thank you for being here today. We appreciate your 
testimony. And with that, the subcommittee stands adjourned.
    [Whereupon, at 9:58 a.m., the subcommittee was adjourned.]
    [Member Questions for the Record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
